                                                                    Page 1 of 1



Heneghan, Philip

From:   Heneghan, Philip
Sent:   Tuesday, March 09, 2010 12:26 PM
To:     Aranoff, Shara L.
Cc:     Heneghan, Philip; Ravesteijn, Elizabeth; Blair, Cordelia
Subject: Comments on Management Decisions Dated March 3, 2010

OFFICE OF INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                      WASHINGTON, DC 20436
Via Electronic Transmission

March 9, 2010

MEMORANDUM

TO:          Chairman Shara L. Aranoff


FROM:           Philip M. Heneghan, Inspector General

SUBJECT:     Comments on Management Decisions Dated March 3, 2010

Chairman Aranoff,

I have reviewed the management decisions that you made to address
the recommendations issued as a result of our audit of the ITC’s
2009 financial statements and I agree with the decisions.


Philip M. Heneghan
Inspector General,
US International Trade Commission




3/15/2010
